No.

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL C. MURPHY

— PETITIONER

(Your Name)
VS.
ESTATE OF GLORIA KAY
MURPHY-WALLACE

— RESPONDENT(S)

PROOF OF SERVICE
Michael C. Murphy,pro se
, do swear or declare that on this date,
April 13
, 2021_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION- FOR -LrEAiVE -T0 -PROCEED- iN~FORMA:
and- PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Kelley Hinsley,Attorney for Respondent
518 W. 3rd. North Street
Morristown,TN 37814 (423) 587-1131
I declare that the Petition complies with the word limitation,and
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

apr-i 1

RECEIVED
APR 1 6 2021
9FF1CE OF THE CLERK
SUPREME COURT. U.S.

1 ^

, 2021.

IflfocAd/, £
(Signature'

